                 INVENTORY VALUATION AT THE
              DEFENSE SUPPLY CENTER PHILADELPHIA


Report No. D-2001-146                              June 21, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
DEPMEDS               Defense Medical System
DISMS                 Defense Integrated Subsistence Management System
DLA                   Defense Logistics Agency
DSCP                  Defense Supply Center Philadelphia
DVD                   Direct Vendor Delivery
GFM                   Government Furnished Materiel
NIRF                  National Inventory Record File
NSN                   National Supply Number
SAMMS                 Standard Automated Material Management System
SPMF                  Standard Pricing Master File
                              Office of the Inspector General, DoD
Report No. D-2001-146                                                                    June 21, 2001
      (Project No. D2000FJ-0067.004)

                                 Inventory Valuation at the
                             Defense Supply Center Philadelphia

                                        Executive Summary

Introduction. The Defense Supply Center, Philadelphia, Pennsylvania, is the lead
control point for inventories of subsistence and non-subsistence items. Subsistence
items include perishable and semi-perishable food items. Non-subsistence items include
clothing and textiles, general and industrial items, and medical supplies. The Supply
Center managed more than 1.8 million different subsistence and non-subsistence items
at the end of FY 2000. The Supply Center reported non-subsistence inventories of
about $1.8 billion and subsistence inventories of about $190 million. Collectively,
those inventories represented 21 percent of the $9.4 billion of inventory Defense
Logistics Agency (DLA) reported on its FY 2000 Financial Statements.

Objectives. The objective was to determine whether the values the Defense Supply
Center Philadelphia assigned to subsistence and non-subsistence inventories were
accurately computed in accordance with generally accepted accounting principles and
were supported by contract data. We also evaluated applicable management controls.
See Appendix A for a discussion of the scope and methodology, the management
control program, and prior audit coverage.

Results. For its non-subsistence items, the Defense Supply Center Philadelphia
assertion that inventory valuation was both accurate and supported by contract data was
not reliable. Of the 728* non-subsistence items statistically selected for review, the
values assigned to 599 items (82.3 percent) were not accurately computed based on the
latest representative obligations or were unsupported. Specifically, 194 items valued at
$10 million had acquisition costs that were inaccurate, 28∗ items valued at $2.9 million
had acquisition costs that were not supported by obligation history records, and 377
items valued at $13.9 million had acquisition costs that were based on obligation history
records that could not be verified to the originating contract files (finding A).

For the subsistence commodity, the Defense Supply Center Philadelphia assertion that
inventory valuation was both accurate and supported by contract data was not reliable.
Of the 81 items selected for review with on-hand inventories valued at $204 million, the
*
    The sample used in this report was developed by DLA. However, the DLA’s sample of 729 items at
    Defense Supply Center Philadelphia included a non-DLA managed item. As a result, we removed one
    item originally reported in the 29 items without supporting obligation history records from our audit
    results.
values assigned to 49 items, valued at $192 million, were not accurately computed
based on the latest representative obligations or fully supported by the originating
contract files (finding B). Until the deficiencies leading to the inaccurate and
unsupportable acquisition costs are corrected and fully disclosed, inventory valuation
data from the Defense Supply Center Philadelphia for about $2 billion of inventory
cannot be relied upon to support the inventory amounts reported on the DLA financial
statements.

Summary of Recommendations. We recommend that the Commander, Defense
Supply Center Philadelphia, develop and implement procedures to accurately compute
acquisition costs based on the latest representative purchase price and identify and
correct the acquisition costs in the national inventory record file that were computed
using the inaccurate methods identified by this audit. We recommend that the
Commander identify and disclose the amount of on-hand inventories that were valued
based on acquisition costs that cannot be supported by contract data. We recommend
that the Commander estimate acquisition costs for items without a procurement history
based on guidance provided in DoD Regulation 7000.14-R, “DoD Financial
Management Regulation,” December 1994. We also recommend that the Commander
develop and implement procedures to retain contract data to support the acquisition
costs used to value on-hand inventories on the financial statements in accordance with
DLA contract retention requirements.

Management Comments. The Director, DLA Logistics Operations, concurred or
partially concurred with all recommendations. The Director disagreed with 377 items
included in our results. He stated that most of the contracts for those items were
outside the retention period. He also implied that valuation information was available
from other electronic sources. He disagreed with two of the subsistence examples and
stated that we did not use a representative buy. He agreed to ensure the inventory
valuation methodology is fully documented, review updates to the national inventory
record file, and eliminate acquisition costs based on canceled contracts. He also agreed
to develop a sampling plan to test the accuracy of prices and to evaluate the cost and
benefits of disclosure of the values of on-hand inventory where contract data do not
support acquisition costs. Although the Director partially concurred with the
recommendation on developing retention procedures for supporting data, he stated that
contracts were retained in accordance with Federal Acquisition Regulation guidelines.
See the findings for a complete discussion of management comments and the
Management Comments section for the complete text of the comments.

Audit Response. The Director’s comments were partially responsive to the
recommendations. We included the 377 items because supporting contract files were
not available for us to review, and we could not make a determination about the
reasonableness of the acquisition cost. We based our conclusion about the two
subsistence examples on DLA’s criteria for latest representative buy. The Director’s
comments did not address retention of obligation history records in the Standard
Automated Material System Pricing System. Also, the DLA needs to issue policy to
ensure that its Inventory Control Points comply with Federal Acquisition Regulation
requirements and require that these procedures are incorporated into any automated
contract folder initiatives. We request that the Director provide additional comments
on the final report by August 20, 2001.


                                           ii
Table of Contents

Executive Summary                                                    i


Introduction
     Background                                                      1
     Objectives                                                      1

Findings
     A. Inventory Valuation of Defense Supply Center Philadelphia
          Non-Subsistence Items                                      2
     B. Inventory Valuation of Defense Supply Center Philadelphia
          Subsistence Items                                         21

Appendixes
     A. Audit Process
         Scope                                                      31
         Methodology                                                32
         Management Control Program Review                          35
         Prior Coverage                                             35
     B. Acquisition Cost Calculation                                36
     C. Potential for Additional Acquisition Cost Inaccuracies      37
     D. Report Distribution                                         39

Management Comments
     Defense Logistics Agency                                       41
Background
     We performed this audit in response to the Chief Financial Officers Act of
     1990, as amended by the Federal Financial Management Act of 1994. This
     report is the third in a series of reports on the valuation of Defense Logistics
     Agency (DLA)-owned inventory.

     Inventories and inventory-related transactions represent major portions of the
     total assets, obligations, revenue, and expenses reported on the DLA financial
     statements. Underlying the financial statements are management assertions on
     the valuation, ownership, existence, completeness, and presentation of
     inventories. Assertions regarding inventory valuation deal with whether
     inventories have been included in the financial statements at the appropriate
     dollar amounts and whether the basis of valuation is appropriate, properly
     applied, and consistent with previous periods.

     The DLA provides centralized management of consumable spare parts, food,
     clothing and textiles, and medical supplies through its inventory control points,
     which are located at its Defense Supply Centers in Columbus, Ohio;
     Philadelphia, Pennsylvania; and Richmond, Virginia. The inventory control
     points are responsible for maintaining accurate and reliable inventory values.

     This report focuses on our efforts to validate the inventory values in the logistics
     feeder systems at the Defense Supply Center, Philadelphia, Pennsylvania
     (DSCP). The DSCP is the lead control point for inventories of subsistence and
     non-subsistence items. Subsistence items include perishable food and
     semi-perishable food items, such as meals ready to eat. Non-subsistence items
     include clothing and textiles, general and industrial items, and medical supplies.
     The Supply Center managed more than 1.8 million different subsistence and
     non-subsistence items. At the end of FY 2000, DSCP reported non-subsistence
     inventories of about $1.8 billion and subsistence inventories of about
     $190 million. Collectively, those inventories represented 21 percent of the
     $9.4 billion of inventory DLA reported on its FY 2000 Financial Statements.

Objectives
     The objective of the audit was to evaluate management assertions for valuation,
     completeness, and existence of DoD inventory accounts and to determine
     whether the financial statements presented the accounts fairly. Two prior audit
     reports focused on the existence and completeness assertions. This part of the
     audit focused on the valuation assertion. The objective was to determine
     whether the values assigned to inventories that the DSCP managed accurately
     computed in accordance with generally accepted accounting principles and were
     supported by contract data. We also evaluated applicable management controls.
     See Appendix A for a discussion of the scope and methodology, the
     management control program, and prior audit coverage.



                                          1
                   A. Inventory Valuation of Defense
                      Supply Center Philadelphia
                      Non-Subsistence Items
                   The assertion that inventory valuation for non-subsistence items was both
                   accurate and supported by contract data at the DSCP was not reliable.
                   Our analysis of the acquisition costs of 7281 items included in the DLA
                   statistical sampling plan to measure the dollar value accuracy of the
                   inventory showed that 599 items (82.3 percent) were not accurately
                   computed based on the latest representative obligation or fully supported
                   by the originating contract files. Specifically,

                   •   194 items valued at $10 million had acquisition costs that were
                       inaccurate.

                   •   28 items valued at $2.9 million had acquisition cost that were not
                       supported by obligation history records.

                   •   377 items valued at $13.9 million had acquisition costs that were
                       based on obligation history records that could not be verified to the
                       originating contract files.

                   The conditions occurred because procedures were not in place to
                   compute acquisition costs based on the latest purchase cost information,
                   to disclose unsupported cost data used, and to retain supporting contract
                   data. Additionally, DSCP had not established a quality assurance
                   program for inventory prices. As a result of the errors, the non-
                   subsistence commodities were understated by $486,336. Inaccurate and
                   unsupported acquisition costs are probable in material amounts in the
                   DSCP-managed items we reviewed. Our analysis of the $1.8 billion of
                   FY 2000 DSCP non-subsistence inventories showed that 235,390 of the
                   items valued at $665.6 million had acquisition costs that were coded as
                   being developed in the same manner as those found to be inaccurate and
                   unsupported by our limited review. Until the deficiencies leading to the
                   inaccurate and unsupported acquisition costs are corrected and fully
                   disclosed, DSCP inventory valuation data cannot be relied upon to
                   support the inventory amounts reported on the DLA financial statements.




1
    The sample used in this report was developed by DLA. However, the DLA sample of 729 items at
    DSCP included a non-DLA managed item. As a result, we removed one item originally reported in the
    29 items without supporting obligation history records from our audit results.



                                                   2
Managing Non-Subsistence Items
     DSCP used the Standard Automated Material Management System (SAMMS) to
     manage its non-subsistence inventories. Within the SAMMS distribution
     subsystem, the national inventory record file (NIRF) contains the total on-hand
     asset balance and acquisition cost for each national supply number (NSN) that
     DSCP managed. In addition, NIRF contains each item’s acquisition cost that
     should be derived from the SAMMS Pricing System. At the end of each
     reporting period, the total DSCP-owned assets are multiplied by the acquisition
     cost to arrive at the extended inventory value for each item. The extended
     inventory value for all DSCP-managed items is combined to arrive at the total
     NIRF inventory value. The NIRF is the source file for the inventory amounts
     reported on the DSCP Defense Stock Fund Trial Balance. The Defense Finance
     and Accounting Service relies on the DSCP Defense Stock Fund Trial Balance
     to prepare the DLA financial statements. DSCP is responsible for ensuring that
     inventory amounts provided in the NIRF and the DSCP Defense Stock Fund
     Trial Balance are complete, accurate, and reliable.

Determining the Acquisition Cost
     Inventory prices are calculated within the SAMMS financial subsystem by the
     Standard Pricing Application (Pricing System). The Pricing System computes
     an acquisition cost for each item based on obligation history records stored in
     the standard pricing master file (SPMF) and provides the acquisition cost to
     inventory files in the other four subsystems. The acquisition cost is used to
     value on-hand inventories on the financial statements and is updated monthly
     after any procurement action. Additionally, the Pricing System calculates a
     standard price for each item and consists of the item’s acquisition cost plus a
     cost recovery factor or surcharge. The standard price is the sales price charged
     to customers and is updated annually at the beginning of each fiscal year. The
     DSCP Pricing Activity, operating under the DSCP Office of the Comptroller, is
     responsible for maintaining accurate and reliable prices. See Appendix B or a
     detailed description of the acquisition cost calculation process.

Testing Valuation
     DLA developed a statistical sampling plan to measure the dollar value accuracy
     of its inventory amounts reported on the financial statements of the DLA
     Working Capital Fund. The DLA sampling plan was established to test the
     existence of the inventory. The plan did not include procedures to validate the
     inventory pricing data for the items reviewed. To validate the values assigned,
     we performed pricing reviews during FY 2000 at the managing DLA inventory
     control points, including DSCP.

     Using items selected by the sampling plan, we analyzed the acquisition costs of
     728 NSNs that DSCP managed in the general and industrial, clothing and
     textiles, and medical commodities. The 728 items consisted of 695 items that


                                         3
         were included in a universe of 3,153 items that DLA randomly selected from
         the on-hand inventory records maintained in the Distribution Standard System at
         11 DLA distribution depots. The 728 items reviewed also included a
         judgmental review of 33 items selected to provide additional coverage of
         unusually low and high value acquisition costs on the DSCP NIRF. See
         Appendix A for details on the selection of items reviewed.

Using Available Information for Valuation
         DSCP did not always accurately value the non-subsistence inventory items that
         it managed. DSCP did not accurately value 194 of the 728 non-subsistence
         items we reviewed using obligation history information with the latest
         representative purchase price on record. The inaccurate acquisition costs
         resulted in a $486,336 misstatement of the on-hand inventory values. Table 1
         shows the reasons for the inaccurate values.



                    Table 1. Items With Inaccurate Acquisition Costs
                                                Number        Financial         Misstatement
Reason for Inaccurate Acquisition Cost          of Items      Inventory $       of Inventory $

Government-Furnished Materiel Cost Used             25         $1,141,337          $(249,157)

Direct Vendor Delivery Cost Used                     8            429,749             (86,498)

Incorrect Estimations                               73            975,658              20,449

FY 1992 Conversion to Latest Acquisition Cost       26            487,235           (254,352)

SAMMS Pricing System Errors                         56          6,919,124              83,412

Zero Value Acquisition Costs                         6                      0            (190)

 Total                                              194        $9,953,103          $(486,336)



         The SAMMS Pricing System contains a purchase trailer (the Trailer) section in
         its SPMF to store current and historical procurement (obligation) records used
         in the acquisition cost calculation process. Each obligation transaction in the
         Trailer of the SAMMS Pricing System contains the following data: obligation
         document number, quantity, purchase cost per unit, total obligation amount,
         Government-furnished materiel (GFM) unit cost, funds classification code,
         award date, and modification date. When multiple lines for a given NSN are
         procured on one contract, all lines are consolidated. The Trailer is capable of
         storing a maximum of 25 purchase records, including the latest three direct
         delivery purchase records, for each stocked item. The number of obligation
         transactions stored on each SPMF record varied according to the age of the
         transaction and the type of item. If the item is a logistics gain that has not had


                                                4
any activity, the system should keep transactions that are up to 5 years old. For
other items, the system should keep trailers that are up to 3 years old based on
the contract modification date provided in the obligation transaction.

Government-Furnished Materiel. For 25 of the 194 items inaccurately priced,
the acquisition costs contained erroneous calculations associated with GFM.

In the Trailer of the SAMMS Pricing System, unit costs are allocated between
the purchase cost per unit and GFM cost. In addition, the items have a cut,
make, and trim cost recorded as part of the purchase cost per unit section. The
DSCP clothing and textiles pricing monitor was using two different
methodologies to record GFM costs. Using one method, the DSCP contracting
officials would enter the GFM costs directly into the SAMMS Pricing System.
Using the second method, the contracting officials would provide a letter to the
DSCP comptroller identifying the GFM costs that were required to be manually
entered into the SAMMS Pricing System.

The GFM cost was not always included in the acquisition cost or the contracting
official inaccurately identified the GFM cost. Also, the comptroller section did
not maintain a record of the notification letters sent from the clothing and
textiles contracting officials. For example, one item in our review was a
poly-wool gabardine man’s coat (NSN 8405-01-279-6116) that the DSCP
clothing and textiles commodity managed. At the time of our review, 188 assets
on hand were valued at $89.67 each.

We obtained the originating contract file that identified the acquisition cost of
$115.36 that included cut, make, and trim cost of $89.67 and GFM costs of
$25.69. Even though a contract identified GFM costs not included in the
acquisition cost, the pricing monitor did not provide a letter to update SAMMS
records. As a result, the acquisition cost of the item was understated by $25.69,
and the total inventory value for the 188 on-hand assets was understated by
$4,830.

Cases in which the acquisition cost did not include the GFM cost in the SAMMS
Pricing System and contract history file also existed. For example, a women’s
poly-wool dress coat (NSN 8410-01-413-2814) that the DSCP clothing and
textiles commodity managed did not include $12.19 in GFM costs. At the time
of our review, 842 assets on hand were valued at $61.95 each. The $61.95
acquisition cost did not include the GFM cost. The exercised contract option
price was $76.39 that included a cut, make, and trim cost of $64.20 and GFM
cost of $12.19. We also reviewed the contract history file and determined that
the acquisition price for GFM listed did not match SAMMS Pricing System and
the original contract. As a result, the acquisition cost of the item was
understated by $14.44, and the total inventory value for the 842 on-hand assets
was understated by $12,158.

Direct Vendor Delivery Costs. Direct Vendor Delivery (DVD) contracts are a
method of contracting which features direct delivery from a designated vendor
to a customer. The purpose of DVD contracts is to reduce logistics response



                                    5
time and infrastructure costs. For 8 of the 194 items, DVD contracts were used
in the calculation of the acquisition costs, even though the acquisition cost
should only calculate the depot replenishment stock deliveries.

The acquisition costs for eight items reviewed included DVD contracts issued
for the sole purpose of transporting depot stock from one location to another,
and for stock transfers back to the contractor identified as a DSCP depot storage
location. To illustrate, one item in our review was a man’s lightweight jacket
(NSN 8405-01-298-6894) managed under the DSCP clothing and textiles
commodity. At the time of our review 3,338 assets were on hand, valued at an
acquisition cost of $46.47 each. The last contracted price for the item was
$51.27. The SAMMS Pricing System used an average of both depot
replenishment stock and DVD contracts. In a period of 6 months, DSCP had
awarded 20 DVD contracts to move the stock from one location to another
location at $5.87. The average acquisition cost of $46.47 included the DVD
contract price of $5.87 and last contract price of $51.27.

According to the DLA Systems Integration Office officials, SAMMS was
supposed to contain and use depot replenishment stock contracts in calculations
to determine a replacement cost or acquisition cost. According to generally
accepted accounting principles, excessive handling should be charged to
operations of the period. The inclusion of the DVD contracts in the acquisition
cost calculation resulted in a $16,022 understatement for the item’s total
inventory value. The NSN was just one of 33 NSNs in the family grouping that
used the acquisition cost of $46.47 and for which the inventory value for those
additional NSNs with assets on hand would be understated.

Also, the acquisition cost in the SAMMS Pricing System represented only the
DVD contracts used to transport depot stock from one location to another,
instead of the procurement cost. The DVD contracts included stock transfers
back to the contractor who identified the contract facility as a DSCP depot
storage location. For example, one item was men’s trousers
(NSN 8405-01-224-3375) that the DSCP clothing and textiles commodity
managed. At the time of our review, 108 assets were on hand and valued at
$2.45 each. The last depot procurement contract was in August 1997 and
identified a cost of $24.40. From October 1998 through October 1999, the only
activity was a DVD contract to move stock from one location to another at a
cost of $2.45 each.

The SAMMS Pricing System was designed to calculate the acquisition cost
using an average of all stock replenishment buys awarded during the last 6
months, plus all other stock replenishment buys that occurred within 45 days of
the latest buy. The SAMMS Pricing System should not calculate a new
acquisition cost if no stock replenishment buys have occurred in the last six
months. By using the DVD contracts, DSCP understated the acquisition cost by
$21.95 and the total inventory value for the 108 trousers was understated by
$2,371. This NSN, NSN 8405-01-224-3375, was just one of 22 NSNs in the
family grouping using the acquisition cost of $2.45. Those additional NSNs
with assets on hand would also be understated.



                                    6
Estimated Acquisition Cost. Of the 194 items incorrectly priced, the
acquisition costs for 73 items had been inaccurately estimated. The acquisition
costs were identified by an acquisition cost code of “E,” indicating that the
items were estimated and not calculated by the SAMMS Pricing System based
on obligation history records. Documentation was not available to support the
methodology used to estimate the acquisition costs, and those costs differed
from the latest representative procurement on record.

        Obligation History Records in the SAMMS Pricing System. Of the
73 items, 41 had estimated acquisition costs that differed from the most recent
procurement prices recorded on obligation history records in the Trailer of the
SAMMS Pricing System. One item we reviewed was a control brightness knob
assembly (NSN 5355-01-027-1565) managed by the DSCP general and
industrial commodity. At the time of our review, 719 assets on hand were
valued at an acquisition cost of $312.08 each. However, the last representative
buy in the Trailer of the SAMMS Pricing System was for the stock
replenishment of 614 items at a purchase cost per unit of $144.40. No data
supported the estimated acquisition cost of $312.08 or explained why the last
purchase cost per unit of $144.40 was not used. As a result, the acquisition cost
of the item was overstated by $167.68, and the total inventory value for the
719 assets was overstated by $120,562.

        Obligation History Records in Other SAMMS Files. Of the
73 incorrectly priced items, 7 had estimated acquisition costs that differed from
the most recent procurement prices recorded on obligation history records in
other SAMMS contract history files. Obligation history records in the Trailer
of the SAMMS Pricing System did not support the seven items.

For six of the seven items, DSCP did not use obligation history records
provided by the previous DoD inventory manager during the logistics
reassignment process to compute the acquisition cost.

In 1990, the Deputy Secretary of Defense approved the transfer of the
management of about 1 million consumable items from the Military
Departments to DLA. Additionally, as part of the 1995 Defense Base
Realignment and Closure decision, DLA realigned more than 600,000 items
among its inventory control points. The logistics reassignments occurred
between FY 1991 and FY 2000. DLA Manual 4140.2, volume II, part 1,
“Defense Logistics Agency Supply Operations Manual,” July 1, 1999, provides
the policy for pricing items acquired during the logistics reassignment process.
Specifically, the policy requires the gaining inventory control point to use
contract history data that the losing inventory control point provided during the
logistics reassignment process to price the transferred inventory until additional
procurement action takes place at the gaining inventory control point.

The obligation history records resided in the SAMMS logistics reassignment
data file. The file serves as a repository for supply management and contract
history data that the losing DoD inventory manager provided during the logistics
reassignment process, but not posted to the SAMMS Pricing System. By not
using the appropriate contract history data, DSCP misstated the inventory value


                                     7
for the affected items by $24,807. For one of the seven items, the obligation
history data resided in the contract history data listing section of the SAMMS
contracting technical data file that differed from the estimated acquisition costs.

       Obligation History Records in Other Contract History Files. Of the
73 incorrectly priced items, 25 items had acquisition costs that differed from the
most recent procurement history file that the Information Handling Service’s
Haystack Windows Online Service maintained (the Haystack) and was readily
available to DSCP. For those items, none of the SAMMS contract history files
had obligation history records.

The Haystack is an on-line parts research and logistics management system that
provides comprehensive information for more than 11 million parts contained in
the Federal Supply Catalog and related databases. The Haystack procurement
history file contains procurement data obtained on a quarterly basis from the
Military Departments and DLA through the Freedom of Information Act.

The obligation history record from the procurement history file contains the
contract number, source, date of contract award, unit price, purchased quantity,
and total obligation amount. Contract information from the Haystack
procurement history database appeared to be reliable. For the 109 items in our
review where we were able to obtain the contract files, procurement history
reports were available from the Haystack service for 109 of the items. The
pricing information from the contract files for 105 of the 109 items matched the
pricing information from the Haystack procurement history file.

One item in our review was an identification marker (NSN 7690-01-207-9229)
managed by the DSCP general and industrial commodity. At the time of our
review, 24 assets valued at $169.90 each were on hand. Our review of the
Haystack procurement history file of the item showed an Army contract
awarded for 85 items at a cost of $0.30 each. No data supported the estimated
acquisition cost of $169.90. As a result, the total inventory value for the 24
assets was overstated by $4,070.

Similar problems may be resident in a material portion of the universe of
DSCP-managed items. In addition to the items included in our review,
30 percent of the $2 billion of inventory reported by DSCP on the
September 30, 1999, Trial Balance was valued based on estimated acquisition
costs. The data were derived from a program developed by the DLA Systems
Integration Office as a result of our audit. The programs stratified the number
of items and on-hand inventory value in the September 30, 1999, DSCP NIRF
by acquisition cost code. On-hand assets of 110,018 items valued at $615
million had an acquisition cost code of “E” (estimated, not calculated, cost
code).

Conversion to Latest Acquisition Cost. For 26 of the 194 items with an
inaccurate acquisition cost, the acquisition cost was calculated when DLA
converted to the latest acquisition cost inventory valuation method in FY 1992.
The acquisition costs were identified by an acquisition cost code of “C” in the
SAMMS Pricing System, indicating that the acquisition cost was calculated


                                     8
when DLA converted to the latest acquisition cost inventory valuation method in
FY 1992. Before 1992, the inventory maintained in SAMMS was valued at a
standard price. The standard price of an item consisted of its acquisition cost
plus a cost recovery percentage, or surcharge, and a 3.8 percent inflation factor
applied by the managing inventory control point. On July 1, 1992, the DLA
Systems Automation Center (renamed the DLA Systems Integration Office in
June 1999) completed a major change to SAMMS to value inventory at the latest
acquisition cost rather than its standard price. To compute the latest acquisition
cost for each NSN, a one-time revision was used that scanned the SPMF and
calculated an acquisition cost by removing the surcharge and 3.8 percent
inflation factor from the current standard price. The conversion process did not
ensure that the newly calculated acquisition cost was supported by the latest
stock replenishment obligation.

The conversion process resulted in a misstatement of the inventory value for the
26 affected items. To illustrate, one item in our review was a self-locking nut,
plate (NSN 5310-01-207-7376) managed by the DSCP general and industrial
commodity. At the time of our review, 166 assets valued at an acquisition cost
of $12.64 each were on hand. The Haystack procurement history report for the
item showed one Army contract was awarded for $0.85 each. Documentation
was not available to support the acquisition cost of $12.64. We concluded that
the acquisition cost of the item was overstated by $11.79, and the total inventory
value for the 166 on-hand assets was overstated by $1,957.

SAMMS Pricing System Computations. For 56 of the 194 items incorrectly
priced, the SAMMS Pricing System computed the acquisition costs based on
obligation history records. The items were identified with an acquisition cost
code of “A,” indicating that the acquisition cost was computer generated based
on DLA-awarded contracts or obligation data provided by the previous
inventory manager if the item was a logistics gain. However, flaws in the
computation process resulted in a misstatement in the inventory value for the
items.

Accuracy of the Family Group Acquisition Costs. For 45 of the incorrectly
priced 56 items, obligation history data resided in the contract history buy data
listing section of the SAMMS contracting technical data file that differed from
the acquisition cost. For the clothing and textiles commodity, DSCP has
combined similar NSNs into family groups and all transactions in the SAMMS
Pricing System are completed within a family group including the acquisition
cost analysis.

As an example of family groupings, the temperate woodland camouflage coat,
Type 1, has 22 different sizes that range from the extra small, to
medium-regular, up to large-extra large. The family group updated its
acquisition cost when one or more NSN had obligation activity. Even though
each size is identified by an individual NSN in SAMMS, the Pricing System
updates the acquisition cost of each NSN within the family group whether or not
a new obligation occurred for an individual NSN. In contrast when placing the
contract delivery orders, the individual NSNs and quantities, not the family
groups, are identified to ensure the correct size and quantity are ordered and


                                     9
received. The SAMMS Pricing System does not determine if the individual
NSNs within the family have had any obligation activity that justifies an
acquisition cost change. The contracting technical data file is an automated
database file that supports the procurement of items by DLA, and the contract
history field should be updated automatically when a transaction is posted to the
SAMMS active contract file by the DSCP contracting organization. However,
none of the 45 items was supported by

obligations in the Trailer of the SAMMS Pricing System. By not using the
appropriate contract history data, DSCP misstated the inventory value for the
affected items by $38,418.

Other Inaccurate System-Calculated Acquisition Costs. Of the 56 incorrectly
priced items, 11 items that had inaccurate acquisition costs were generated by
the SAMMS Pricing System for a variety of other reasons. Reasons included
nonrepresentative obligation history records being used in the acquisition cost
calculation, representative obligation history records being left out of the
acquisition costs calculation, canceled contracts, and various other minor errors.

For canceled contracts, a programming error existed in SAMMS. The Pricing
System did not recalculate the acquisition cost using the second most recent
stock replenishment obligation when the most recent obligation was canceled.
We discussed the issue with the DLA Systems Integration Office and were
informed that the programming did not allow for the acquisition cost to be
recalculated when a contract was canceled. The computer specialist responsible
for maintaining the SAMMS Pricing System corrected the programming as part
of an April 2000 systems change. However, the change was not retroactive.
Therefore, the Pricing Activity at each DLA inventory contract point would
have to identify and correct any existing acquisition costs that were based on
canceled contracts.

Items with No Acquisition Cost. For 6 of the 194 items that were incorrectly
priced, no acquisition cost existed even though NIRF contained on-hand assets.
The items were identified as NSNs that were non-stock purchases (acquisition
cost code number 2). The acquisition cost was missing because no procedures
were in place to ensure that all NSNs with on-hand inventory were assigned an
acquisition cost. The lack of an acquisition cost resulted in an understatement of
the inventory value for the affected items.

For example, helmet pads (NSN 8415-01-422-2249) managed by the DSCP
clothing and textiles commodity were identified as a local purchase NSN.
However, DSCP was reporting 149 items on-hand at $0.00. We discussed the
issue with the DLA Systems Integration Office personnel who told us that
SAMMS had processes to ensure that all stocked items contained an acquisition
cost in both the SPMF and the NIRF. However, items that were not coded as
stocked (identified by a supply status code of 2) were exempt from the process
because they generally did not have on-hand assets. As a result of the audit, the
DLA Systems Integration Office developed a program that would identify the
unusually low and high acquisition costs in the SAMMS NIRF and write them to
a file. Items with unusually low acquisition costs included those with a zero


                                    10
     value. The program was established as a permanent program that could be
     executed upon request. The DSCP Pricing Activity should use the program the
     DLA Systems Integration Office developed to identify all zero value acquisition
     costs at the end of each reporting period and ensure they receive a reasonable
     price.

     Quality Assurance Program for Inventory Prices. DSCP did not previously
     detect the inaccurate acquisition costs we identified because it had not
     established a quality assurance program to ensure the accuracy of inventory
     prices. With 7 pricing analysts responsible for maintaining accurate prices for
     more than 1.8 million items, efforts were focused on ensuring the accuracy of
     prices recommended by the SAMMS Pricing System for fast-moving (active)
     items before release. However, many of the items that we found with
     inaccurate acquisition costs had little sales and procurement activity (were
     inactive) and were not reviewed by pricing analysts. Some of the inaccurate
     acquisition costs we identified have resided in SAMMS since FY 1992. To
     ensure continued accuracy of all its prices, DSCP must establish a quality
     assurance program for inventory prices. As part of that program, the DSCP
     Pricing Activity should perform scheduled reviews on inactive items using the
     procedures described in DLA Manual 7000.2, Volume II, part 1, “Standard
     Automated Material Management Systems (SAMMS) – Financial Subsystem
     Operating Procedures,” July 1999, as well as test the accuracy of prices for
     active items.

Availability of Obligation History Records
     For 28 items valued at about $2.9 million (see Table 2), the SAMMS Pricing
     System did not have obligation history records to support the acquisition costs
     because the obligation history records were purged from the contract history
     files. Additionally, none of the other contract history files (contracting technical
     data file, logistics reassignment data file, or Haystack procurement history
     database) had obligation history records to support the acquisition costs.
     Without supporting obligation history records, we were unable to determine the
     accuracy of the assigned acquisition costs.



               Table 2. Items Without Supporting Obligation History Records

               Type of Item           Number of Items   Financial Inventory $

               Logistics Gain Items         18               $ 151,179

               Other Items                  10               2,745,941

                 Total                      28               $2,897,120




                                          11
     For an item acquired by DSCP through the logistics reassignment process, a
     purchase record resulting from a DSCP procurement is established and updated
     by obligation transactions received from the SAMMS distribution subsystem if
     the transaction is a result of contract history data provided by another DoD
     inventory control point (a logistics gain).

     Logistics Gain Items. Of the 28 unsupported items, DSCP acquired 18 items
     during the logistics reassignment process. We researched the SAMMS logistics
     reassignment data files for those items and determined that the obligation history
     data were not obtained during the logistics reassignment process.

     For logistics gain items for which the obligation records were not obtained, the
     SAMMS Pricing System is programmed to set the acquisition cost equal to the
     standard price of the DoD inventory control point that previously managed the
     item provided. The standard price should represent the cost incurred by the
     previous DoD inventory manager to acquire the item plus the applicable cost
     recovery factor or surcharge. Using the standard price to value on-hand
     inventory resulted in an overstatement of the financial inventory value.

     Other Items. Of the 28 unsupported items, 10 items were not supported by
     obligation history records and were not identified as logistics gains. For these
     items, the obligation history data was purged from the Trailer of the SAMMS
     Pricing System. We researched additional automated sources of contract data,
     but the other sources of contract data were unable to provide support for the
     assigned acquisition costs.

Availability of Contract Files
     For 377 items valued at approximately $14 million (see Table 3), obligation
     history records existed in the Trailer data of the Pricing System or other
     obligation history databases to support the acquisition cost, but the originating
     contract file was not available to support the limited information provided on the
     obligation history record. The supporting contract files were not available
     because the files were destroyed when their age exceeded DLA contract file
     retention requirement, or were not obtained during the logistics reassignment
     process, were lost, or were associated with deployable medical systems with no
     supporting pricing documentation.




                                         12
                    Table 3. Items Without Supporting Contract Files

 Reason For Missing Contract File             Number of Items    Financial Inventory $

 Age Exceeded DLA Retention Requirements              174                $ 3,477,348

 Not Obtained During Logistics Reassignment             33                   278,512
    Process
 Lost                                                 155                    965,654

 Deployable Medical Systems                             15                 9,214,877

   Total                                               377               $13,936,391

DLA Contract File Retention Requirements. The DLA policy for retaining
contract files is established in DLA Instruction 5015.1, “DLA Records
Management Procedures and Records Schedule,” March 1, 2000. DLA policy
defines contracts as individual and subcontract case files accumulated from the
administration of individual contracts consisting of purchase orders, contracts,
comparable instruments, and other documentation, as applicable, as required by
the Federal Acquisition Regulation. According to DLA policy, contracts for
more than $25,000 are to be retained for 6 years and 3 months after final
payment. Contracts for $25,000 or less are to be retained for 3 years after final
payment. The retention criteria are based on the time frames established in the
Defense Federal Acquisition Regulation Supplement.

DSCP Contract Retention Procedures. DSCP did not have local procedures
specifying the time period for retaining contract files. The DSCP officials relied
on DLA policy and the Defense Federal Acquisition Regulation Supplement.
The DSCP officials also stated that contract files more than 6 years old were
generally destroyed unless specific justification was provided for their retention.

Obligation Records Exceeding DLA Contract Retention Periods. A total of
174 of the 377 items had an obligation history record in the Trailer of the
SAMMS Pricing System but the actual contract files were unavailable because it
exceeded DLA contract retention requirements. The lack of contract files
prohibited us from determining whether the acquisition costs were based on
representative stock replenishment buys and void of abnormal costs such as
excessive handling or rework costs. Additionally the age of the most recent
obligation history records supporting the acquisition costs raised concerns about
the future utility (likelihood of sales) of the on-hand inventory.

Obligation Records for Logistics Gain Items. A total of 33 of the 377 items
had an obligation history record in the Trailer of the SAMMS Pricing System
but the actual contract file was unavailable because it was not obtained by DSCP
during the logistics reassignment process. The items were identified by a type
of price change code of “L” to show that the obligation records electronically
provided by the previous manager were used in the acquisition cost calculation.
We could not be reasonably assured that the obligation records were reliable
without reviewing the actual contract files.


                                      13
Obligation Records Within the Federal Contract Retention Period. A total
of 155 of the 377 items had an obligation history record in the Trailer of the
SAMMS Pricing System but the actual contract files were not available for
review even though their contract modification dates fell within the DLA
contract retention requirements.

Importance of Originating Contract Files. Without being able to review the
originating contract files, we could not be reasonably assured that the limited
data provided on the obligation records were complete and accurate. For
example, one item in our review was Women’s slacks (NSN 8410-01-442-7332)
which the DSCP clothing and textiles commodity managed. At the time of our
review, 906 assets were on hand, valued at an acquisition cost of $12.37 each.
We obtained the originating contract file that identified an acquisition cost of
$21.58 and included cut, make, and trim cost of $9.57 and GFM costs of
$12.01. Because the acquisition cost was not representative of cut, trim, and
make and GFM costs, the on-hand inventory value was understated by
$8,344.26. Without reviewing the actual contract file, we would not have been
able to determine that obligation records in the Trailer of the SAMMS Pricing
System did not support a representative stock replenishment buys.

Obligation Records for DEPMED Items. A total of 15 of the 377 items were
Deployable Medical Systems (DEPMEDS) stock valued at $9.2 million.
DEPMEDs are standardized modular field hospitals that can be pre-positioned in
the event of a contingency, national emergency, or war operations. DEPMEDs
use shipping containers for self-contained hospital facilities such as pharmacies,
radiology laboratories, and surgery clinics. The products are purchased under
individual NSNs and assembled into a DEPMEDS NSN. The SAMMS Pricing
System automatically prices the DEPMEDS at a standard price and publishes the
standard price annually in the DEPMEDS End Item Standard Pricing Report.
The acquisition cost is calculated by removing the surcharge from the prevailing
standard price.

For the DEPMEDs reviewed, the acquisition cost reported in SAMMS did not
equal the standard price less the surcharge. The acquisition costs for the
15 items were understated by $1.4 million.

DSCP did not maintain any supporting pricing documentation from the original
completion of the DEPMEDS. Each year, SAMMS calculates the standard
price for DEPMEDS based on the market value of each individual component of
a DEPMED. The acquisition cost for the DEPMEDS is adjusted annually to
reflect the change in the market value identified in the standard price
calculation. DSCP Pricing Activity had not reviewed the DEPMEDS SAMMS
acquisition cost or standard price with the contracting files because the contract
files were unavailable to validate the SAMMS acquisition cost.




                                    14
Potential for Additional Acquisition Cost Inaccuracies
           During the audit, we identified 73 items that had acquisition costs inaccurately
           estimated (identified by an acquisition cost code of “E”). Additionally, 27 items
           had acquisition costs that were inaccurately computed during the initial
           acquisition cost conversion in FY 1992 (identified by an acquisition cost code
           of “C”). Of the 199 items with inaccurate acquisition codes, a total of 100
           items were identified with the inaccurate acquisition costs codes of “C” and
           “E.” Table 4 shows “C” and “E” items in the universe.

                             Table 4. September 30, 2000, DSCP Inventory by Acquisition Cost
                                                  Code
           Acquisition          NSNs with         Percent of        Total On-Hand       Percent of
           Cost Code          On-hand Assets     Total NSNs       Inventory Value       Total Value
           A                       233,927        49.9           $1,162,431,334.82       63.55
           C                       134,331        28.6               117,623,767.95        6.43
           E                      101,059         21.5               547,936,110.33      29.95
           Other                     418           0.0                 1,303,578.36          .07

             Total                 469,735           100.0             $1,829,294,791.46           100%


           We believe the potential for the problems identified during the audit exists in a
           material amount in the universe of DSCP inventory. A significant number of
           items in the FY 2000 DSCP NIRF were coded as having been computed in the
           same manner as those found inaccurate by our audit. In Table 4, 2 235,390
           NSNs with on-hand assets existed that had acquisition costs identified by
           acquisition cost codes “C” and “E,” which represented 50 percent of the
           469,735 DSCP-managed items with on-hand inventory. Additionally, the
           $665.6 million on-hand inventory value for those items represented more than
           36 percent of the total $1.8 billion DSCP inventory value as of September 30,
           2000. See Appendix C for the break down of the inventory by acquisition cost
           code by the three DSCP commodities.

Summary
           The 728 items we reviewed represented only a small portion of the total DSCP
           inventory because the items were selected as part of an effort to measure the
           accuracy of all DLA-owned inventories. However, we believe that items having
           acquisition costs developed in the same manner as those found to be inaccurate
           by our review exist in a material amount in the total universe of DSCP
           inventory. Additionally, the system changes implemented by the DLA Systems
           Integration Office were not retroactive, and we do not know how many
2
    Appendix C contains the detailed break down of the general and industrial, clothing and textile, and
    medical commodities for September 30, 2000.




                                                      15
    additional items exist in the universe of DSCP inventory that were valued using
    the inaccurate methods identified. DSCP needs to review the NIRF, and
    identify and correct any additional inaccurate acquisition costs.

    We also believe that additional inventory valuation problems may have gone
    undetected because DSCP had not established a quality assurance program to
    ensure the accuracy of its inventory prices. Further, we could not determine the
    reasonableness of the acquisition costs used to value on-hand inventories for
    items without supporting obligation history records. A significant number of
    items were valued using acquisition costs that could not be supported by an
    obligation history record in the SAMMS Pricing System or other automated
    contact history files. In the absence of procurement histories, DoD Regulation
    7000.14-R, Department of Defense Financial Management Regulation,
    Volume II B, “Reimbursable Operations, Policy, and Procedures for the
    Defense Business Operations Funds,” December 1994, permits DoD activities
    to estimate acquisition costs based upon current manufacturer parts listings or
    market price quotations. DSCP must identify all items that are not supported by
    obligation history records and estimate a reasonable price using DoD guidance.

    Additionally, we could not be reasonably assured that the acquisition costs used
    to value on-hand inventories were based on the latest representative stock
    replenishment buy and were void of any abnormal costs without being able to
    review the supporting contract files. Contract files will not be available to
    support the significant number of items that had acquisition costs based on
    obligation history records that were more than 6 years old or that were provided
    electronically by the Military Departments during the logistics reassignment
    process. In the absence of the originating contract data, DSCP must disclose the
    value of the on-hand inventory that cannot be properly supported, and the
    disclosures must continually be made until the amount of inventory valued based
    on unsupported acquisition costs is reduced to an immaterial amount. Also,
    because on-hand inventory is frequently retained longer than the maximum
    6-year time period required for retaining the contract files that support the last
    purchase price, DSCP must establish that the obligation history records in the
    SAMMS Pricing System are reliable and contain accurate information based on
    the originating contract files. Until all of those actions are accomplished, we
    cannot be reasonably assured that financial inventory values that DSCP reported
    are free from material misstatement.

    While our review showed that 82.3 percent of the items reviewed at the Defense
    Supply Center Philadelphia were not accurately computed or were not
    supported, similar rates of discrepancy were found in items reviewed at the
    Defense Supply Centers in Columbus and Richmond. The results of all three
    Centers will be reported in a summary report.

Management Comments on the Finding and Audit Response
    Management Comments. DLA partially concurred with the finding, but stated
    that the DLA procedure is to compute the latest representative acquisition cost
    using the weighted-average acquisition cost of stocked items using the latest


                                        16
contract and any other buys made in the preceding 44 days. DLA concurred
that the audit identified areas where DLA could improve policies and procedures

Audit Response. We accepted the DLA averaging methodology as accurate
during the audit. However, acquisition costs we identified as inaccurate differed
significantly from the most recent representative purchase price, including the
average of the most recent purchase price and all buys made in the preceding
44 days.

Management Comments. DLA stated that the error rate cited in the draft
finding was incorrect. Specifically, DLA disagreed with the 377 items without
supporting contracts. DLA stated that it had retained contracts for the required
retention period. DLA also implied that current electronic files are the basis for
obligations and disbursements and that it did not receive paper contract copies.
Furthermore, DLA stated that the vendors are paid the true cost based on an
active contract file from the Defense Finance and Accounting System and
reasoned that the active contract file could have been used to audit pricing.
Finally, DLA identified that standard prices for the DEPMEDS are established
at the assembly level by a special program but the program does not capture the
acquisition cost at assembly level. To capture the acquisition cost, SAMMS
would have to be reprogrammed and there is a moratorium on system changes to
SAMMS.

Audit Response. We were unable to rely on the inventory valuation dates in
SAMMS because DLA could not provide assurance that the data were complete,
accurate, and reliable. We included the 377 items because supporting contract
files were not available for us to review, and we could not make a determination
about the reasonableness of the acquisition cost. For the 174 items with
contracts that exceeded the age retention requirements, 33 logistics reassignment
items were without supporting contract files. Because source documents for the
acquisition costs used were not available, DLA needs to disclose the total
inventory value for items in those two categories. In addition, 155 of the 377
items were within the legal contract retention requirement. Although DSCP had
converted to electronic files, the electronic copy of the contract was not
available. Without the supporting documentation, the accuracy of the
acquisition cost for those items could not be determined. In performing this
audit we used the DLA policy for verifying the latest acquisition cost. The
remaining 15 items were related to the DEPMEDS. Although there is a
moratorium for systems changes in SAMMS, DLA needed to ensure that the
acquisition costs are captured when SAMMS is replaced the DLA Business
System Modernization.

Management Comments. DLA stated that its methodology was revised in FY
1992 that removed 8.1 percent of the price as a proxy for the average surcharge
included in the standard price inherited from the Services.

Audit Response. For items gained from the Military Department, we disagree
that the 8.1 percent was representative of the average surcharge. The
surcharges for the Military Departments in FY 1995 ranged from 23.8 percent
to 52.1 percent and in FY 2000 the range was from 13.4 percent to 44.6


                                    17
    percent. Without supporting documentation, DLA needs to require that the
    acquisition costs for those items be estimated based upon current manufacturer
    price listings or market price quotations.

Recommendations, Management Comments, and Audit
  Responses
    A. We recommend that the Commander, Defense Supply Center
    Philadelphia:

    1. Develop and implement procedures in the Standard Automated Materiel
    Management System to accurately compute acquisition costs used to value
    on-hand non-subsistence inventories based on the latest representative
    purchase price. The procedures should require the Defense Supply Center
    Philadelphia Pricing Activity to:

           a. Fully document and maintain the methodology used to estimate
    acquisition costs and use the latest representative purchase price as a basis.

    Management Comments. DLA partially concurred and stated that it uses the
    weighted-average methodology to compute costs from recent representative
    contract prices. DLA planned to review DLA Manual 7000.2 and ensure that
    the DLA inventory valuation methodology is fully documented by July 2001.

    Audit Response. The DLA comments were partially responsive to the
    recommendation. The comments did not specifically address the acquisition
    costs that are estimated. DLA corrective actions should specifically include
    procedures to document the supporting data for acquisition costs that are
    estimated.

           b. Use consistent acquisition cost data in the national inventory
    record file and the standard pricing master file.

    Management Comments. DLA concurred with the recommendation, stating
    that this is DLA practice. DLA does acknowledge instances when an update to
    the standard pricing master file has not been recorded in national inventory
    record file. DLA identified that at the end of each month, SAMMS reconciles
    the standard pricing master file with the national inventory record file and
    creates a report of change.

           c. Use the program developed by the Defense Logistics Agency
    Systems Integration Office to identify and correct all acquisition costs with
    a zero value at the end of the each reporting period.

    Management Comments. DLA concurred with the recommendation, stating
    that the program is in place at DSCP.

    Audit Response. Although DLA concurred with the recommendation, it did
    not provide the effective date of the program. At the time of the audit, the DLA


                                       18
Systems Integration Office program was not being used at DSCP. Additionally,
DLA previously responded to similar recommendations we made to the
inventory control points in Columbus, Ohio, and Richmond, Virginia, and
stated that a review would be conducted and recommendations would be made to
the Business Systems Modernization office at DLA. We request DLA to
provide the implementation date of the program at DSCP to the final report.

       d. Identify and correct all acquisition costs residing in the national
inventory record file that were using computed data based on inaccurate
methods identified by this audit, including acquisition costs incorrectly
estimated, acquisition costs incorrectly computed during the FY 1992
conversion to the latest acquisition cost inventory valuation method, and
acquisition costs erroneously based on canceled contracts.

Management Comments. DLA partially concurred with the recommendation,
and stated that its pricing methodology, averaging the most recent contracts to
compute prices, results in more accurate pricing. DLA will review the current
DOD inventory valuation policies to ensure compliance of DLA policies and
procedures, especially concerning the appropriateness of eliminating acquisition
costs erroneously based on cancelled contracts. Estimated completion data for
this action is September 28, 2001.

2. Establish a quality assurance program to ensure the accuracy of
non-subsistence inventory prices. The program must include procedures to
test the accuracy of prices for all items, including inactive items.

Management Comments. DLA concurred with the recommendation and stated
that the Defense Supply Center Columbus will develop a sampling plan to test
the accuracy of inventory prices. DLA will coordinate with the other Supply
Centers, to include Philadelphia, to see if a sampling program is already being
utilized. Upon completion, the sampling program will be disseminated to the
other Centers for use as appropriate. The estimated completion data for these
actions is September 28, 2001.

3. Develop and implement procedures to identify the total non-subsistence
inventory value for items with acquisition costs not supported by obligation
history records and require that the acquisition costs for those items be
estimated based upon current manufacturer’s price listings or market price
quotations. Additionally, develop and implement procedures to disclose the
total inventory value for items with acquisition costs based on obligation
history records provided by the previous managing inventory control point
for logistic gain items and acquisition costs based on Defense Supply Center
Philadelphia obligation history records more than 6 years old.

Management Comments. DLA partially concurred with the recommendation,
stating that they agree in principle with the recommendation, but because it will
require an intensive manual effort, they will assess the costs and benefits of any
changes to procedures prior to any implementation. DLA stated that the
analysis would be completed by July 31, 2001.



                                    19
4. Develop and implement procedures to retain the latest representative
obligation history record in the purchase trailer of the standard pricing
master file and require the retention of supporting contract files in
accordance with Defense Logistics Agency retention requirements.

Management Comments. DLA partially concurred with the recommendation,
stating that contracts are retained in accordance with Federal Acquisition
Regulation requirements and that retention beyond those time frames for items
that have not been procured beyond this period would have a far reaching
impact not only to DLA but the Military Services. Additionally, the Military
Services would also be required to retain and pass the records to the DLA upon
Logistics reassignments. DLA stated that the recommendation should be
addressed to the Under Secretary of Defense (Comptroller) for review and
comment.

Audit Response. Although DLA partially concurred with the recommendation,
we do not consider its comments responsive. Our recommendation does not
require that contract files be retained beyond Federal Acquisition Regulation
guidelines and it does not apply to the Military Departments. We found that the
SAMMS Pricing System did not always retain the latest representative
obligation history records. We believe that DLA needs to address the retention
limitations of obligation history records in the SAMMS Pricing System.
Additionally, DLA needs to issue procedures to its inventory control points
specifying the Federal Acquisition Regulation requirements and ensure that these
procedures are incorporated into any automated contract folder initiatives.
Those actions are the responsibility of DLA, not the Under Secretary of Defense
(Comptroller). We request DLA provide comments to the final report.




                                   20
                    B. Inventory Valuation of Defense
                       Supply Center Philadelphia
                       Subsistence Items
                    The DSCP assertion that inventory valuation was accurate and supported
                    by contract data was not reliable for the subsistence commodity.

                    •   Of the 81 items selected for review (valued at $204 million), 49
                        items (valued at $192 million) were not accurately computed based
                        on the latest representative obligations or fully supported by the
                        originating contract files.

                    •   The trial balance did not have adequate support.

                    The conditions occurred because procedures were not in place to
                    compute acquisition costs based on the latest purchase cost information,
                    disclose unsupported cost data that were used, and retain supporting
                    contract data. Additionally, DSCP had not established a quality
                    assurance program for inventory prices. As a result, the subsistence
                    inventory was overstated by $1.8 million.3 Until the deficiencies leading
                    to the inaccurate and unsupported acquisition costs are corrected and
                    fully disclosed, DSCP inventory valuation data cannot be relied upon to
                    support the $220 million subsistence amount reported on the DLA
                    financial statements.

Sample of Subsistence Inventory Items
           DLA did not include the universe of items from the subsistence commodity
           when developing its random sampling plan for testing the existence of inventory
           under the Chief Financial Officers Act. As a result, we used a judgement
           sample to select and analyze the acquisition costs for the subsistence items at
           DSCP. We selected 81 NSNs, valued at $204.9 million, from the subsistence
           commodity that DSCP managed. See Appendix A for details on the reviewed
           81 items selected.

           Unlike the SAMMS system used by DSCP to manage non-subsistence items,
           DSCP uses the Defense Integrated Subsistence Management System (DISMS) to
           manage the subsistence commodity. DLA Instruction 5015.1 states that DISMS
           is a materiel management system that provides information about supply,
           contracting, warehousing, and transportation functions.

           We compared the available DISMS acquisition costs available to the information
           in the associated contracts. We also tested whether the acquisition costs used to

3
    In our evaluation of a meal ready-to-eat item (NSN 8970-00-149-1094), we incorrectly excluded a
    $4.4 million overstatement. As result, the understatement of $2.6 million for Subsistence in the draft
    report has been changed to a $1.8 million overstatement.



                                                      21
    value the 81 items in the DSCP financial reports were accurately computed and
    supported by obligation history records in the DISMS. We then tested whether
    the obligation records could be verified to the originating contract files. We
    performed these tests to verify whether the acquisition costs were based on the
    latest acquisition cost inventory valuation method as required by Federal
    accounting policy.

Results of Sample
    DSCP did not use available obligation history data or the latest representative
    purchase price on record to value 49 items of the 81 items reviewed. The use of
    inaccurate acquisition costs resulted in a $1.8 million overstatement of the
    on-hand inventories valued at $192 million. Our analysis of the acquisition
    costs reflected the following errors.

    DISMS Pricing System Computations. Of the 49 items, 7 items (valued at
    $6 million) were incorrectly priced. The DISMS Pricing System computed the
    acquisition costs based on obligation history records. Errors in the computation
    process resulted in a misstatement in the inventory value for the affected items.
    For example, one of the items in our review was ground black pepper
    (NSN 8950-00-127-8067) that the DSCP subsistence commodity managed. At
    the time of our review, 60,932 cans were on hand. DISMS Pricing System
    showed an acquisition cost of $1.76. However, the last contract award price
    was $2.90. The DSCP Pricing Activity could not explain why the price was
    understated by $1.14 each. The inaccurate acquisition cost caused the financial
    statement inventory value for the item to be understated by $69,462.48.

    Obligation History Records in Other DISMS files. Of the 49 items
    incorrectly priced, 11 items (valued at $3 million) had acquisition costs that
    differed from the most recent procurement price recorded on the obligation
    history records in other DISMS contract history files. The obligation history
    data of the 11 items resided in the contract history buy data listing section of the
    DISMS contracting technical data file because obligation history records
    identified no contract history trailer. By not using the appropriate contract
    history data, DSCP misstated the inventory value for the affected items. For
    example, one item in our review was canned beef chunks (NSN
    8905-01-243-0099) that the DSCP subsistence commodity managed. At the time
    of our review, 111,290 assets were on hand. The DISMS Pricing System
    showed an acquisition cost of $4.14. The DSCP Pricing Activity identified a
    January 1995 contract to support the acquisition. DSCP could not provide the
    identified contract. Our review of the contract history buy data listing section of
    the DISMS contracting technical data file showed that the most recent DSCP
    subsistence contract was for 240 items at an acquisition cost of $2.21 each. By
    not using the last contract price for the item, DSCP overstated the acquisition
    cost for the item by $1.93 and overstated the total inventory value of the
    111,290 items by $682,425.30.

    Ration and Meal Ready-to-Eat NSNs Calculations. Rations are breakfast,
    lunch, or dinner menus that are designed to provide good quality, nutritionally


                                        22
adequate, hot or cold entrées for an individual soldier or group of soldiers under
modern battlefield conditions. A ration entrée could include subsistence items
that are perishable/frozen, semi-perishable, dehydrated, or canned, and all
capable of maintaining a shelf life. For the ration NSNs, DISMS did not
automatically calculate the acquisition cost. Instead, the calculations were
manually performed by the subsistence Pricing Activity and entered into
DISMS. A ration is comprised of numerous individual NSNs. The ration NSN
acquisition costs are computed by using the quantity required by an individual
NSN multiplied by the current acquisition cost under the Quarterly Variance
Report. The pricing monitor obtained the contract history, the quantity ordered,
and the purchase price for each NSN within the ration NSN.

No requirement existed to compare the contract history information with the
Quarterly Variance Report and to calculate the acquisition cost using on-hand
quantities currently in the inventory. As a result, the subsistence Pricing
Activity would use the acquisition cost from the Quarterly Variance Report for
each individual NSN within the ration NSN. The sum of the total NSNs became
the next fiscal year’s acquisition cost.

Of the 49 items we reviewed, 31 items valued at $183 million were manually
calculated and had unsupported acquisition costs. The DISMS was not
programmed to calculate the acquisition cost or annual standard price for the
meal ready-to-eat and ration NSNs. The calculations are manually computed
and entered annually into the system. The manual calculations for the FY 2000
acquisition costs were unsupported. The supporting documentation had been
destroyed prior to a relocation move of the organization during July 1999.
However, a reconstructed computation for meal ready-to-eat and ration NSNs
was provided.

The reconstructed report identified the ration NSNs, individual NSNs within the
ration NSNs, the quantity required per NSN, the standard price, the acquisition
price (arrived at as the standard price less the surcharge), the average contracted
price, and the difference in the acquisition price and contract number. For the
reconstructed data, the subsistence Pricing Activity compared the acquisition
cost used with a contract that was representative of the quantity required in the
ration NSN. Our analysis identified that the last contracted price was not used.
For example, one item in our review, heat and serve breakfast menu 4
(NSN 8970-01-433-0565), had 2,661 assets on hand with an acquisition cost of
$183.12 each. The DSCP manual calculation of the acquisition cost by a DSCP
official identified a value of $213.68 each. As a result, the acquisition cost of
the item was understated by $30.56, and the total inventory value for the 2,661
on-hand assets was understated by $81,320.16.

Additionally, our analysis identified that different acquisition costs were used
for the same NSN found in both the ration items and the individual subsistence
items reviewed. For example, in our review ration NSN 8970-01-325-1192
contained an individual NSN reviewed during the audit (NSN 8940-00151-
6462). Under the ration NSN, the acquisition price used for the individual NSN
was $15.86 supported by a 1997 contract. However, the individual NSN Active
Contract History report identified contract activity during the FY 1998 with an


                                    23
    acquisition cost of $6.32. Additionally, the standard price, $21.17, was based
    on the 1997 contract. Finally, DSCP officials could not provide the contracts
    for either the 1997 or 1998 buys to support the acquisition costs identified. The
    pricing monitor could not explain why there would be a difference except that
    the 1998 contract was possibly not representative of the individual NSN.

    Unlike the rations, the meal ready-to-eat NSNs used a weighted-average method
    for determining historical cost value of on-hand inventory. However, the
    weighted-average did not match the acquisition cost shown in DISMS.

Financial Reporting
    DSCP could not provide a sufficient audit trail to support its financial inventory
    values. DLA reported in the September 1999 Defense Stock Fund Trial Balance
    $217.6 million in subsistence inventory. However, DSCP reported total
    subsistence inventory of approximately $220 million on their September 30,
    1999, trial balance. The DISMS National Inventory Dollar Value report is used
    by DSCP to report the subsistence inventory in the trial balance. However, the
    inventory totals for all storage sites were not reconcilable to the amounts
    reported on the trail balance, and the report contained $16.5 million of
    unsupported manual adjustments. These inventory amounts actually reflected
    the inventory balances at the end of July 1999, even though the year-end values
    were available in the first week of October. Further, DISMS generates an
    Inventory Latest Acquisition Cost Changes report that reflects the total
    subsistence inventory managed by DSCP. The total inventory amount at year-
    end 1999 was $245 million. That total exceeded the amount reported on the
    DSCP trial balance by $25 million and the DLA trial balance by $27.4 million.
    Without adequate procedures in place to report subsistence inventory, we cannot
    be reasonably assured that the correct data is submitted for inclusion in the DLA
    financial statements.

    Adjustments to Historical Costs. The Subsistence Pricing Activity was not
    aware of adjustments being made at the end of the fiscal year to adjust on-hand
    inventory to its historical cost. A DSCP official stated that if DISMS makes a
    gain or loss adjustment on a monthly, quarterly, or annual basis, DISMS would
    reflect the quarterly change in acquisition cost. A DSCP official also stated that
    no review of the adjustment was being accomplished in the Subsistence
    Comptroller Section. The pricing monitor stated that manual calculations reflect
    the latest acquisition cost for each meal ready-to-eat and ration NSN.
    Therefore, there would be no requirement to adjust the latest acquisition cost to
    a historical cost. The Pricing Activity did not inquire to determine if DISMS
    was programmed to make adjustments during the year or at the end of the fiscal
    year.

Summary
    The 81 items we reviewed represented a small portion of the total DSCP
    subsistence inventory. We believe that items having acquisition costs developed


                                        24
    in the same manner as those found to be inaccurate by our review could exist in
    a material amount in the total universe of DSCP subsistence inventory. DSCP
    needs to review the subsistence NSNs, and identify and correct any additional
    inaccurate acquisition costs. We could not be reasonably assured that the
    acquisition costs used to value on-hand inventories were based on the latest
    representative stock replenishment buy and were void of any abnormal costs
    without being able to review the supporting contract files. In the absence of the
    originating contract data, DSCP must disclose the value of the on-hand
    inventory

    that cannot be properly supported, and the disclosures must continually be made
    until the amount of the inventory value based on unsupported acquisition costs is
    reduced to an immaterial amount.

    A significant problem existed in obtaining contracting data to support the
    manual calculation of acquisition cost for ration NSNs. An audit trail did not
    exist for the manually computed acquisition costs. DSCP personnel
    reconstructed the data but the analysis showed significant problems when the
    acquisition costs and the identified contract data were compared. In the end, the
    validity of the number reported to support the inventory value on the financial
    statements was questionable.

    Additionally, we found that the trial balance was unsupported. We could not
    determine the inventory universe, the quantity on hand, and the acquisition price
    used in the calculation of the trial balance. We also could not determine the
    difference between DSCP and DLA trial balance amounts. Until all of those
    actions are accomplished, we cannot be reasonably assured that financial
    inventory values DSCP reported for the subsistence commodity are free from
    material misstatements.

Management Comments on the Valuation of Subsistence Items
    Management Comments. DLA partially concurred with the finding, but stated
    that less than 20 percent of the subsistence-managed items are at standard price.
    DLA stated that the prices for produce and food service items provided by the
    Prime Vendor are updated weekly. Additionally, those items valued at standard
    price are primarily operational rations and are manually priced on an annual
    basis. DLA stated that the items included in this inventory sample were those
    remaining in their supply system but have since been depleted.

    Audit Response. The inventory sample used in the audit was a random sample
    based on inventory levels for the fiscal year end 1999 provided by DLA.
    Although some of the inventory has been depleted, the audit focused on the
    accuracy of data in DISMS. The audit results showed numerous inaccuracies
    with the data in DISMS and this affected the accuracy of the information being
    reported in the DLA financial statements.

    Management Comments. DLA stated that the DLA procedures are to compute
    the latest representative acquisition cost using the weighted-average of stocked


                                        25
items based on the latest contract and any other buys made in the preceding 44
days. DLA concurred that the audit has identified areas where DLA could
improve policies and procedures.

Audit Response. We accepted the DLA averaging methodology as accurate.
However, the acquisition costs we identified as inaccurate differed significantly
from the most recent representative purchase price, including the average of the
most recent purchase price and any other buys made in the preceding 44 days.

DLA stated that its acquisition cost was based on the latest representative
acquisition cost using the weighted average that was based on the latest contract
and any other buys made in the preceding 44 days. The acquisition costs we
identified as inaccurate differed significantly from the latest representative
purchase price and the DISMS acquisition cost. In DISMS, for individual NSN
items, the acquisition cost was based on the previous 3 months (quarter of the
fiscal year) purchases and averaged to identify a new acquisition cost.

Management Comments. DLA took exception to the black pepper example,
NSN 8950-00127-8067, and stated that the $1.76 price was based on a large
quantity buy in the early 1990s. DLA stated that the last contracted price of
$2.90 was not representative of the 60,932 inventory quantity on hand. DLA
stated that the subsistence was actively reducing this time from the inventory,
because of a shift to commercial practices and depletion of that item’s inventory.

Audit Response. DLA did not have support for the $1.76 acquisition cost for
the black pepper. The contract history file identified 22 contracts awarded since
1995. The audit identified the latest acquisition cost was $2.90 per can. Seven
months before the latest acquisition cost, a contract for 17,280 cans,
approximately one-third of the on-hand inventory, had an acquisition cost of
$2.82. Additionally, if a weighted average methodology was used for the
60,932 cans on hand, the acquisition cost would have been $2.12 per can. Also,
a 1995 contract for 233,280 cans had an acquisition cost of $1.63 per can. In
all four of those cases, the DISMS acquisition cost of $1.76 per can was not
validated.

According to DLA policy, the latest representative buy is based on the stock
replenishment obligations dated within the past 6 months, and stock
replenishment obligations with quantities greater than a one-month’s demand
dated within 45 days of the latest eligible obligation. The DSCP pricing analyst
was not basing the latest representative buys on monthly demand, but on
“significant quantities” of past contracts. As a result, DLA needs to ensure
policies and procedures explicitly define the criteria for determining the
acquisition cost if historical costs and latest acquisition costs are not used.

Management Comments. DLA also took exception to the canned beef chunks
example, NSN 8905-01-243-0099. DLA stated that the $4.14 price was based
on the last representative buy in January 1995 and considered the $2.21 audit
price not a representative buy.




                                    26
    Audit Response. In the canned beef chunks example, the procurement history
    identified that the last contract was awarded in November 1997. The price per
    can was $2.21. The procurement history provided only one additional contract
    for April 1996. The price per can was $3.32. No additional information
    existed in DISMS to support contract activity for canned beef chunks or any
    actual contracts to support the $4.14 per can DISMS acquisition price. Using
    the DLA-identified methodology for calculating acquisition costs, the $2.21 per
    can would be the reported acquisition cost. As discussed previously with black
    pepper, DLA needs to ensure policies and procedures that explicitly define the
    criteria for determining the acquisition cost if historical costs and latest
    acquisition costs are not used.

    Management Comments. DLA stated that no requirement exists to either
    compare contract history with the Quarterly Variance Report or to calculate
    acquisition cost using on-hand quantities currently in the inventory. DLA stated
    that the NSNs within a menu that appear on the Federal Supply Catalog-Price
    List for Subsistence (C8900-PL) are priced and reviewed on a quarterly basis by
    the non-ration pricing analyst. Using the C8900-PL review, the ration pricing
    analyst uses the latest acquisition cost for each of these NSNs. For NSNs not
    published in the C8900-PL, the ration-pricing analyst conducts a review.
    Because these NSNs could be procured at different times in the year, DLA uses
    the latest acquisition cost in a representative contract to price each NSN within a
    menu.

    Audit Response. At the time of our audit, an evaluation for determining the
    value assigned to an individual NSN in a ration menu was completed by a
    subsistence pricing analyst. The analyst was responsible for valuing both the
    ration NSNs and non-ration NSNs. The process provided to us showed the
    analyst’s determination of the individual NSN value in a ration menu was not
    based on the latest acquisition cost or the latest representative contract, but the
    contract that was closest to the established value. No consistency was used in
    valuing the individual NSNs within a menu. Additionally, the valuation
    procedures were not documented and an audit trail did not exist.

Recommendations, Management Comments, and Audit
  Responses
    B. We recommend that the Commander, Defense Supply Center
    Philadelphia:

    1. Develop and implement procedures in the Defense Integrated
    Subsistence Management System to accurately compute acquisition costs
    used to value on-hand subsistence inventories based on the latest
    representative purchase price. The procedures should require the Defense
    Supply Center Philadelphia Pricing Activity to:

           a. Fully document and maintain the methodology used to estimate
           acquisition costs and use the latest representative purchase price as a
           basis.


                                         27
Management Comments. DLA partially concurred with the recommendation,
stating that DLA follows Financial Management Regulation direction of the
most recent representative contract price. DLA plans to review and document
the procedures in completion of the current policy and plans by July 2001.

       b. Use consistent acquisition cost data in the Defense Integrated
       Subsistence Management System.

Management Comments. DLA partially concurred and stated that using
consistent acquisition cost data in DISMS was a DLA practice. DLA also stated
that a discrepancy could exist between the ration menu items being priced
annually (August) and the individual end item being priced quarterly. That
procedure would result in the end item price being more representative than the
ration menu item price.

       c. Identify and correct the acquisition costs residing in the national
       inventory record file that were computed using the inaccurate
       methods identified by this audit.

Management Comments. DLA partially concurred with the recommendation.
DLA stated that its cost methods were accurate. DLA stated that DSCP was
actively trying to deplete stocks on NSNs that are to be procured under
commercial practices.

Audit Response. Although DLA partially concurred with the recommendation,
we do not consider its comments responsive. DSCP was actively trying to
deplete stocks, however, the audit results showed that information in DISMS
and the supporting documentation did not support the accuracy of DSCP cost
methods. Additionally, the audit result showed that the subsistence financial
data being report in DLA financial statements were not supportable. We request
that DLA reconsider its position and provide additional comments in response to
the final report.

       d. Develop procedures that provide an audit trail for the manually
       calculated acquisition.

Management Comments. DLA concurred and stated that Business System
Modernization should address the issue of storing pricing reports in an
electronic format for a longer period than 15 months. DLA stated that pricing
analysts will retain a hard copy of supporting documentation and methodology
used to determine the price of annually priced items of FY 2002 in August
2001. Additionally, DSCP will consider pricing all subsistence NSNs annually
upon implementation of Business System Modernization with the reduced
activity of those NSN and creating a longer audit trail period.

       e. Develop procedures that validate acquisition costs and on-hand
       assets used to compile the trial balance.

Management Comments. DLA concurred and stated that the long term
solution to correct the material weakness this audit identified will be the


                                    28
implementation of BSM. In the mean time, DISMS files are scanned for both
inventory transactions and balances, and posted to the trial balance by DFAS
using a journal voucher process.

Audit Response. Although DLA concurred with the recommendation, DLA
comments are partially responsive. DLA should develop interim procedures to
ensure the validity of the acquisition costs and on-hand assets used to compile
the trial balance. Although DLA concurred with the recommendation, the
response did not provide an estimated completion date. We request DLA
reconsider this recommendation and provide an estimated completion date in
response to the final report.

2. Establish a quality assurance program to ensure the accuracy of
subsistence inventory prices. The program must include procedures to test
the accuracy of prices for all items including inactive items.

Management Comments. DLA concurred with the recommendation. DLA
stated that its item NSN inventory is reduced due to shifting to commercial
practices. No inactive items are in its inventory. For the remaining NSNs in
the supply system, acquisition costs are and will continue to be priced based on
representative latest acquisition cost. DLA stated for the remaining ration items
in the system, acquisition prices are priced manually on an annual basis;
individual NSNs acquisition costs are reviewed monthly and updated based on
the most recent procurement activity.

Audit Response. Although DLA concurred with the recommendation, we do
not consider its comments responsive. DLA comments to this recommendation
conflict with comments provided earlier to the finding. In response to the
finding, DLA stated individual NSNs are valued and reviewed on a quarterly
basis and represent the latest acquisition costs. However, DLA comments to
this recommendation state that all NSNs are valued and reviewed monthly and
are priced based on representative latest acquisition costs. The audit results
showed that DLA was valuing NSNs at something other than latest acquisition
costs. We request DLA provide additional comments to the final report.

3. Develop and implement procedures to identify the total subsistence
inventory value for items with acquisition costs not supported by obligation
history records and require that the acquisition costs for those items be
estimated based upon current manufacturer’s price listings or market price
quotations. Additionally, develop and implement procedures to disclose the
total inventory value for items with acquisition costs based on obligation
history records provided by the previous managing inventory control point
for logistic gain items and acquisition costs based on Defense Supply Center
Philadelphia obligation history records more than 6 years old.

Management Comments. DLA partially concurred and stated that most
subsistence items have a short shelf life and a high turnover rate, resulting in
up-to-date prices. DLA identified that NSNs with old procurements are being
purchased through prime vendors and no longer impact inventory because the



                                    29
inventory has been deleted and no longer stocked. The remaining NSNs are
ration items and priced at the representative latest acquisition costs.

4. Develop procedures that validate the inventory reported on the
subsistence trial balance and provide an audit trail.

Management Comments. DLA concurred and stated that problems exist with
the current financial accounting system. Plans to update the program were
discontinued. DLA plans to address this issue in the Business System
Modernization implementation.

Audit Response. We consider DLA comments to be partially responsive. We
request DLA provide a completion date for this action in its response to the final
report.




                                    30
Appendix A. Audit Process

Scope
    We performed this audit as part of the requirements of Public Law 101-576, the
    “Chief Financial Officers Act of 1990,” November 15, 1990, as amended by
    Public Law 103-356, the “Federal Financial Management Act of 1994,”
    October 13, 1994. For this part of the audit, we limited the scope of our review
    to verifying the accuracy of inventory valuation information at DSCP.

    Work Performed. We performed the audit at DLA headquarters, DSCP, and
    the DLA Systems Integration Office. We analyzed the acquisition costs for a
    review of 728 DSCP-managed NSNs to determine whether the acquisition costs
    were calculated in accordance with Federal accounting policy. The analysis
    included verifying the acquisition costs to the originating detailed transaction
    data (the contract). As part of our audit, we reviewed numerous inventory-
    related documents including:

    •   Federal accounting policy, DoD financial management regulations, and DLA
        procedures and policies on valuing and reporting inventories;

    •   File interrogation reports for each applicable review item from the SAMMS
        standard pricing master file, national inventory record file, and the logistics
        reassignment data file;

    •   DLA Systems Integration Office documents describing SAMMS Pricing
        System;

    •   Procurement history reports from the Information Handling Service’s
        Haystack Windows Online Service for each applicable reviewed item;

    •   DD Form 1155, “Order For Supplies Or Services,” and related contracting
        documents supporting obligation records used in calculating the acquisition
        cost for each applicable reviewed item;

    •   SAMMS transaction history file reports (for the maximum 24-month period)
        for items that were found to be inaccurately priced; and

    •   DISMS quarterly item price lists and contract history reports for each
        applicable review item.

    We verified the acquisition cost for each item by obtaining contract data at the
    managing inventory control point because the acquisition cost in DLA is updated
    when a contract is awarded and not upon the receipt of goods. In addition, we
    did not believe that sufficient invoice data would be available at the DLA
    distribution depots because they are required to retain copies of receipt invoices
    (DD Form 250, “Material Inspection and Receiving Reports”) for a period of



                                         31
    only 2 years. In addition, we believed that the significant relocation of
    inventories resulting from Defense Base Realignment and Closure actions would
    also limit the availability of original invoice data.

    Limitations to Audit Scope. Our audit work was limited to determining
    whether the acquisition costs used to value DSCP inventory were based on
    Federal accounting policy and supported by contract data. We did not assess the
    reasonableness of the price paid for the items or the reasonableness of the DSCP
    surcharge rates.

    DoD-Wide Corporate-Level Government Performance and Results Act
    Goals. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate-level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following goal:

    FY 2001 DoD Corporate-Level Goal 2: Prepare now for an uncertain future
    by pursuing a focused modernization effort that maintains U.S. qualitative
    superiority in key warfighting capabilities. Transform the force by exploiting
    the Revolution in Military Affairs, and reengineer the Department to achieve a
    21st century infrastructure. (01-DoD-2)

    •   FY 2001 Subordinate Performance Goal 2.5: Improve DoD financial and
        information management. (01-DoD-2.5)

    •   FY 2001 Performance Measure 2.5.2: Achieve unqualified opinions on
        financial statements. (01-DoD-2.5.2)

    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following functional area objectives and
    goals.

    • Financial Management Functional Area. Objective: Reengineer DoD
      business practices. Goal: Standardize, reduce, clarify, and reissue financial
      management policies. (FM-4.1)

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Financial Management and Inventory Management high-risk areas.

Methodology
    We reviewed Federal accounting standards, DoD, and DLA policies and
    procedures for valuing inventories. We also interviewed various DSCP
    personnel involved in the inventory valuation process including procurement
    specialists and pricing analysts. In addition, we interviewed computer
    specialists at the DLA System Integration Office who were responsible for
    supporting SAMMS Pricing System.


                                       32
We performed a review of the acquisition costs used to value 728
DSCP-managed NSNs on the SAMMS NIRF, which serves as the source file
for the on-hand non-subsistence inventory value on the DSCP Stock Fund Trial
Balance. We interrogated the SAMMS SPMF for each item to determine the
methodology used to calculate the acquisition cost. We also reviewed the
Trailer data section of the SAMMS Pricing System to determine if there were
obligation records to support the acquisition cost. In addition, we reviewed
Procurement History reports from the Information Handling Service’s Haystack
Windows Online Service for each NSN to determine if obligation records
supported the acquisition cost. We also reviewed SAMMS logistics
reassignment data files for each item. For items with obligation records that
supported the acquisition cost, we requested the contract folder from the
appropriate DSCP activity. We reviewed the contract folder for each item to
determine if the obligation data maintained in the SPMF was complete and
accurate, and reflected the last representative invoice price as defined by
generally accepted accounting principles. For items that were found to be
inaccurately valued, we obtained SAMMS Transaction History File reports for
the maximum 24-month period available to determine whether any assets had
been sold at the inaccurate price. Additionally, we obtained the DSCP
surcharge rates for FY 1999 to calculate the impact that the inaccurate
acquisition costs had on the standard price.

Universe and Sample. Of the 728 items we reviewed, 695 items were part of a
DLA-wide sample of 3,153 records selected as part of a sampling plan that
DLA executed to assess the accuracy of its FY 1999 financial statement
inventory valued. In June 1999, DLA fielded a sampling plan to test the
accuracy of the portion of its inventory stored at 18 DLA distribution depots
operating under the Distribution Standard System. As part of that effort, DLA
used a two-stage, stratified, random sampling procedure to select a sample of
3,153 records from the Distribution Standard System operating files at 11 DLA
distribution depots for the period ending June 30, 1999. NSN by location (all
condition codes) served as the unit of analysis or sample record. Inventory
values for the 3,153 records were determined using the acquisition cost from the
SAMMS operating files at the managing DLA inventory control points.

In our review of the DLA sampling plan, we reported that the plan did not
include procedures to test the accuracy of the unit prices in the SAMMS
operating files at the managing DLA inventory control points. We decided to
test the accuracy of the 3,153 records in SAMMS. Of the 3,153 records, 754
were identified in the Distribution Standard System as being managed by DSCP.
During our review, we found that 6 of the 754 NSNs management responsibility
had transferred from DSCP to the Defense Supply Center Richmond.
Additionally, we found that 53 items had zero on-hand assets. Removing those
59 items left the total number of DSCP-managed items with on-hand assets
selected as part of the DLA sampling plan at 695.

In addition to the 695 items, a judgmental review of 36 items was selected for
review from the SAMMS NIRF, which serves as the source file for the
inventory amounts reported on the financial statements. The 36 items were
selected as part of our review to provide greater coverage of the unusually low


                                   33
and high acquisition costs and acquisition costs lacking an acquisition cost code.
During our review, we found that three items had zero on-hand assets. After
eliminating these items, the total number of items reviewed managed by DSCP
was 728. This report will not project the results from the 728 items to the
DSCP total inventory universe. However, we will comment on the total
3,153 records selected as part of the DLA Sampling Plan in a summary report.

The DLA Sampling Plan did not include sampling the subsistence commodity.
The deficiency was addressed in the Inspector General, DoD, Report
No. D-2000-138, “Procedures Used to Test the Dollar Accuracy of the Defense
Logistics Agency Inventory,” June 1, 2000. As a result, DLA provided the
subsistence data to the Inspector General, DoD, in October 1999. We
judgmentally reviewed the subsistence commodity. A total of 15 storage
locations were identified with a total number of 634 NSNs. We judgmentally
reviewed 81 of 634 NSNs.

Use of Computer-Processed Data. To achieve the audit objective, we relied
on computer-processed data from the DLA SAMMS. We did not test the
general and application controls in SAMMS. Specifically, we analyzed the
acquisition costs and obligation history data in the NIRF and SPMF.

Of the 728 items we reviewed, we determined that the computer-processed
acquisition cost data were unreliable for 194 items in the NIRF. We were not
able to determine the reliability of the computer-processed acquisition cost data
in the SPMF for 405 items because DSCP could not provide the obligation
history records (28 items) or the originating contract files (377 items). The
computer-processed acquisition cost and supporting obligation history data in the
SPMF were reliable for 129 of the 728 items that we reviewed because we were
able to verify the accuracy of the information to source documents.

Audit Type, Dates, and Standards. We performed this financial-related audit
from October 1999 through March 2001 in accordance with auditing standards
issued by the Comptroller General of the United States, as implemented by the
Inspector General, DoD. We did our work in accordance with generally
accepted Government auditing standards except that we were unable to obtain an
opinion on our system of quality control. The most recent external quality
control review was withdrawn on March 15, 2001, and we will undergo a new
review.

Contacts During the Audit. We visited or contacted individuals and
organizations within DoD. Further details are available upon request.




                                    34
Management Control Program Review
    DoD Directive 5010.38, “Management Control Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that
    programs are operating as intended and to evaluate the adequacy of those
    controls.

    Scope of the Review of the Management Control Program. We reviewed the
    FY 1999 Annual Statement of Assurance issued by DLA to determine whether
    the issues addressed in this report had been reported as material management
    control weaknesses.

    Adequacy of Management Controls. We identified material management
    control weaknesses, as defined by DoD Instruction 5010.40, related to the
    valuation of DSCP-managed inventory. The details of the management control
    weaknesses are provided in the finding section of this report. The
    recommendations in this report, if implemented, will improve the accuracy and
    reliability of the DSCP inventory values. A copy of this report will be provided
    to the senior official responsible for management controls at DSCP.

    Adequacy of Management’s Self-Evaluation. The FY 1999 DLA Annual
    Statement of Assurance did not identify any material control weaknesses related
    to the valuation of DSCP-managed inventory.

Prior Coverage
    Inspector General, DoD, Report No. D-2001-078, “Inventory Valuation at the
    Defense Supply Center Richmond,” March 14, 2001

    Inspector General, DoD, Report No. D-2001-079, “Inventory Valuation at the
    Defense Supply Center Columbus,” March 14, 2001

    Inspector General, DoD, Report No. D-2000-138, “Procedures Used to Test the
    Dollar Accuracy of the Defense Logistics Agency Inventory,” June 1, 2000

    Inspector General, DoD, Report No. D-2000-086, “Assuring Condition and
    Inventory Accountability of Chemical Protective Suits,” February 25, 2000




                                       35
Appendix B. Acquisition Cost Calculation
   As described by DLA Manual 7000.2, Volume II, Part I, “Standard Automated
   Material Management System Financial Subsystem Operating Procedures,”
   July 1, 1999, the acquisition cost calculation is an automated process that the
   Pricing System performs within the SAMMS financial subsystem. SAMMS
   maintains one acquisition cost value for each NSN without regard to the number
   of assets on hand. The acquisition cost is recomputed as new procurement
   actions occur. The acquisition cost for an item is equivalent to its average
   replacement cost as calculated from obligation history records contained on the
   SPMF. The acquisition cost is the sum of all eligible obligation amounts
   divided by the sum of their obligation quantities plus GFM costs and any other
   applicable costs contained on the SPMF. Acquisition costs for stocked items are
   calculated using an average of all stock replenishment buys awarded during the
   past 6 months, plus any other stock replenishment buys that have occurred
   within 45 days of the latest stock buy. The quantity of the buys used must also
   be at least equal to one month’s demand based on historical data. The
   mechanically recommended price changes are held in suspense at least 7 days to
   enable the Pricing Activity to review, revise, or delete as applicable.

   Each item assigned an acquisition cost has a corresponding acquisition cost date
   and acquisition cost code. The acquisition cost date is the Julian date on which
   the acquisition cost became effective and should always be the first of the
   month. The acquisition cost code is a one-position field describing how the
   acquisition cost was developed. The acquisition cost codes are defined in the
   following table.

   Definitions of Acquisition Cost Codes

      Acquisition
      Cost Code       Definition

            A         Acquisition cost was computer generated based on obligation
                      transactions in the SPMF. The transactions may result from
                      a DLA award or from obligation transactions provided by
                      the previous inventory manager if the item was a logistics
                      gain.
            C         Acquisition cost was computed during a DLA-wide
                      conversion from standard price to latest acquisition cost in
                      July 1992, and no procurement action took place since the
                      initial conversion.
            E         Acquisition cost was estimated.
            G         Acquisition cost was based on the standard price provided by
                      the previous manager upon transfer of management
                      responsibility to DLA.



                                      36
Appendix C. Potential for Additional Acquisition
            Cost Inaccuracies
                The following tables break down the DSCP by commodity. As depicted
         in Table C.1, the DSCP general and industrial commodity had 221,806 NSNs
         with on-hand assets having acquisition costs identified by acquisition cost codes
         “C” and “E,” which represented 50 percent of the 442,507 DSCP-managed
         items with on-hand inventory. Additionally, the $343 million on-hand inventory
         value for those items represented more than 43 percent of the total $792 million
         DSCP inventory value as of September 30, 2000.

           Table C.1 September 30, 2000, DSCP General and Industrial Inventory
                                by Acquisition Cost Code
Acquisition NSNs with On-hand       Percent of Total   Total On-Hand       Percent of
Cost Code           Assets              NSNs           Inventory Value     Total Value
A                  220,290               49.8        $447,461,778.90            56.49
C                  129,447               29.3          60,684,158.10             7.66
E                   92,359               20.9         282,687,210.21            35.69
Other                  411                0.0           1,300,003.77              .16

 Total             442,507             100.0         $792,133,150.98            100%


                In Table C.2, the DSCP-clothing and textiles commodity had 10,157
         NSNs with on-hand assets having acquisition costs identified by acquisition cost
         codes “C” and “E,” which represented 48 percent of the 20,913 DSCP-
         managed items with on-hand inventory. Additionally, the $258 million on-hand
         inventory value for those items represented more than 28 percent of the total
         $901 million DSCP inventory value as of September 30, 2000.



           Table C.2 September 30, 2000, DSCP Clothing and Textiles Inventory
                               by Acquisition Cost Code
Acquisition NSNs with On-hand      Percent of Total     Total On-Hand      Percent of
Cost Code           Assets             NSNs             Inventory Value    Total Value
A                  10,750                51.4        $643,375,109.62            71.36
C                   2,817                13.5          33,646,170.93             3.73
E                   7,340                35.1         224,747,325.54            24.92
Other                    6                0.0               2,949.59             0.00

 Total             20,913              100.0         $901,589,555.68            100%




                                              37
                 In Table C.3, the DSCP medical commodity had 3,427 NSNs with
         on-hand assets having acquisition costs identified by acquisition cost codes “C”
         and “E,” which represented 54 percent of the 6,315 DSCP-managed items with
         on-hand inventory. Additionally, the $63.9 million on-hand inventory value for
         those items represented more than 47 percent of the total $135 million DSCP
         inventory value as of September 30, 2000.

                Table C.3. September 30, 2000, DSCP Medical Inventory
                                by Acquisition Cost Code
Acquisition   NSNs with On-hand     Percent of Total      Total On-Hand    Percent of
Cost Code          Assets               NSNs             Inventory Value   Total Value
A                 2,887                    46          $71,594,446.30            52.8
C                2, 067                    33           23,475,438.92            17.3
E                 1,360                    21          40,501,574,.58            29.9
Other                 1                   0.0                  625.00            0.00

 Total            6,315                100.0          $135,572,084.80          100%




                                                38
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Logistics Agency
  Commander, Defense Supply Center, Philadelphia

Non-Defense Federal Organizations and Individuals
Office of Management and Budget




                                           39
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform.
House Subcommittee on Technology and Procurement Policy,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform




                                         40
Defense Logistics Agency Comments




                  41
42
43
44
45
46
47
48
49
Audit Team Members
   The Finance and Accounting Directorate, Office of the Assistant Inspector
   General for Auditing, DoD, prepared this report. Personnel of the Office of the
   Inspector, DoD, who contributed to the report are listed below.

     Paul J. Granetto
     Richard B. Bird
     Amy J. Frontz
     Barry N. Harle
     Jean M. Jackson-Herrin
     Marvin T. Rohr
     Sharon Carvalho
